NO.

0'“5845
IN THE

SUPREME COURT OF THE UNITED STATES

DEVERICK SCOTT # 131042- PETITIONER
VS.
DANNY BURL, ET AL - RESPONDENT®! 1

u

'

ON PETITION FOR A WRIT OF CERTIORARI TO
THE 8th CIRCUIT COURT OF APPEALS

filed
M 0 7 2020

PETITION FOR WRIT OF CERTIORARI

DEVERICK SCOTT # 131042
P.O. BOX 600
GRADY, AR. 71644

1

QUESTION(S) PRESENTED
1. If the A.D.C. authorizes a prisoner to have his personal property in Isolation
Confinement by giving to him on his 48hr relief after he served 30 days
consecutive in punitive measures and forget to come back and get that property, “
can A.D.C. on shakedown “confiscate”, and “Destroy” that very property for being
in possession of that very same property while housed in Punitive
Isolation.(Property that have sentimentally value). And after several administrative
grievance complaints properly still destroyed... Is this Constitutional? CODY V.
Weber. 256 F 3d 764,771 (8th Cir. 2001). Shaw v. Murphy 532 U.S. 223.
232-31 (2001V
2. If an prisoner is allowed to buy hygiene items in Punitive Isolation for Oct. Nov.
2015 but after constant redressing of grievances of his personal property being
destroyed then Major refuse to sign off on prisoner 48hr relief slip to by hygiene
items. Its denied now saying inmate is not allowed to buy hygiene items in
Punitive Isolation having inmates living and smelling like criminals. Is that cruel
and unusual punishment? Cody v. Weber,256 F 3d 764,771 (8th Cir. 2001).
Shaw v. Murphy 532 U.S. 223.232-31(20011. Farmer v. Brennan ,511 U.S.
825,825,834 (1970) Owens v. Scott county jail. 328 F. 3d 1026.1027
(8th Cir. 2003V
3. Did 8 Circuit, and District Court abuse its discretion by failing to liberally
construe Scott complaint as a complete failure to treat abscess, cause his hair was
twisted and locked for his religious beliefs. “By Scott being out his cell for lhr at
medical jacket review. The D.O.N. of infirmary telling guards to escort Scott
infirmary once he left medical jacket review. Scott being already strip search
2

before he left his cell, and walking in infirmary door to be medically treated in full
handcuffs, and shackles” . By A.D.C. officers Stout and Clark telling guards stop!
Take Scott back to his cell and don’t let him out to he take his hair down, is that
denial, delayed of serious medical attention? More importantly is that a violation of
Scotts religious beliefs. He had wait 6 hours till next shift to receive medical
attention. Is that cruel and unusual? And 1st Amendment violation? Atkins v.
Bokin, 91 F. 3d 1127,2128-29 (8th Cir. 1999): Sea lock, 218 F. 3d at 1211:
Love v. Reed, 216 F. 3d 682 8th Cir. 2000 U.S.C. A; Thomas v. Collins,
323 U.S. 516, 530 (1945).
4. If in Discovery process of 42 U.S.C. complaint Defendants admit that the “false
disciplinary hat was written in retaliation” and inmate was found guilty on “some
evidence” standard. But officer admit in Discovery another officer had told them to
write disciplinary. None of allegations in disciplinary are true against plaintiff. In
today; society should that plaintiff then receive some type of relief? Should
retaliation disciplinaries inmates alleging be put to new standard of today’s society
standards. Cause if an officer is already retaliating on an inmate and falsifying a
disciplinary, they gone fabricate the evidence to find him guilty. Johnson v.
Ganim 342 F 3d 105,112 (2d Cir. 20031 Thaddeus-X v. Blatter 175 F.
3d378, 394 (6th Cir. 1999) Dixon v. Brown. 38 F. 3d 379 I8th Cir. 1994);
Hartsfield v. Nichols, 511 F. 3d 826 (8th Cir. 2008T

3

LIST OF PARTIES

[

] All parties appear in the caption of the case on the cover page.

[ ^ ] All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceedings in the court whose judgment is the subject of this
petition is as follows: See next page.

RELATED CASES

4

Parties
The Petitioner Deverick Scott, is a prisoner of the Varner Supermax of the
Arkansas Department of Correction.
The Respondents are:
Danny Burl, Warden Tucker Max Unit.
Aundreo F. Fitzgerald, Asst. Warden, Tucker Max.
Carl E Stout, Major Tucker Max Unit, Cochoran.
Angelah Kennedy, Sgt. Tucker Max Unit.
Cornelius Christopher, Sgt. Tucker Max Unit.
Eddie Thompson, Corporal, Tucker Max Unit.
Hunter Neal Officer tucker Max Unit.
Reena Harrison, Commissary Supervisor Tucker Max Unit.
Wendy Kelly, Director ADC.

5

TABLE OF CONTENTS

Table of Contents
OPINIONS BELOW

10

JURISDICTION

11

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

12

STATEMENT OF THE CAUSE

13

REASON FOR GRANTING THE WRIT

14

CONCLUSION

28

PROOF OF SERVICE

29

INDEX TO APPENDICES
APPENDIX A: Finding of United States District Court

(1-31)

APPENDIX B: Judgment of United States Court of Appeals

(1-2)

APPENDIX C: Motion of extension of time July 10, 2020

(1-3)

APPENDIX D: Writ Scott filed incomplete to meet deadline cause he didn’t
receive response to motion of extension of time
APPENDIX E:
APPENDIX F:

6

(

)

TABLE OF AUTHORITIES
Cases
Atkins v. Bohn, 91 F 3d 1127, 1128-29 (8th Cir. 1999)................

16

Atkins v. Bokin, 91 F. 3d 1127, 2128-29 (8th Cir. 1999)..............

3

Banner v. Coughlin 517 F 2d 1311, 1315-17 (7th Cir. 1975)........

25

Benjamin v. Coughlin 905 F 2d 571 (2nd Cir. 1990)....................

19

Black Moore v. Kalamazoo County 390 F. 3d 890 (6th Cir. 2004)

17

Bonner v. Coughlin 517 F 2d 317.................................................

26

Braussand v. Johnson, 253 F 3d 874 (8th Cir. 2001).....................

21

Cardenas v. Wigen 921 F. Supp 286 (ED Pa 1996).......................

21

Celotex v. Catrett 477 US 317 (1987............................................

18

Cho Taylor v. Sullivan 980 F . Supp 697, 704 (S.D.N.Y. 1997)....

23

Cody v. Weber. 256 F 3d 764, 771 (8th Cir. 2001).......................

2

Deverick Scott v. Danny Burl No. #19-2759.................................

13

Deverick Scott v. Danny Burl,5:17-CV-0098DPM.......................

13

Dixon v. Brown, 38 F. 3d 379 (8th Cir. 1994)...............................

3,24

Estelle v. Gamble 429 US 97 (1976).............................................

17

Farmer v. Brennan ,511 U.S. 825, 825, 834 (1970)......................

2

Franco v. Kelly 854 F 2d 504, 585 (2nd Cir. 1988).......................

23

Gluston v. Coughlin at 81 F. Supp 2d 381, 386 (N.D.NY 1999)....

23

Goff v. Bruton, 7 F 3d 734, 738 (8th Cir. 1993)............................

21

Harrison v. Barkley, 219 F 3d 132, 134, 136-38 (2d Cir. 2000)....

16

Hartsfield v. Nichols, 511 F 3d 826 (8th Cir. 2008)......................

24

Henderson v. Baird 29 F 3d 826 (8th Cir 1994).............................

14,21

Higgs, 286 F 3d 437.......................................................................

22

Howell Burden 12 f 3d 190...........................................................

17

7

Johnson v. Busbee 953 F 2d 349 (8th Cir. 1991)..........

17

Johnson v. Ganim 342 F 3d 105, 112 (2d Cir. 2003)....

3,23

Johnson-el v. Schoemehl 828 Fed 1043 (8th Cir. 1989)

18

Logan v. Zimmerman Bush Co. 455 US 442, 102 S.Ct 1148 71 L.Ed 2d 265 (1982)
26
Love v. Reed, 216 F. 3d 682 8th Cir. 2000........................................

3

Majluta v. Samples, 375 F 3d 1269, 1273 (11th Cir. 2004)................

23

Noncke v. City of Port Hills 284 F 3d 923 (8th Cir. 2000).................

18

O’Bryan v. Bureau of Prisons 349 F 3d 399 (7th Cir. 2003)..............

15, 19

Orebough v. Casporil 910 F 2d 396 (8th Cir. 1990)..........................

14

Othoman v. City of Country Club Hills 677 F 2d 622 (8th Cir. 2012)

18

Owens v. Scott county jail, 328 F. 3d 1026, 1027 (8th Cir. 2003).....

2

Parti v. Taylor 451 US 527, 536, 1010 S.Ct. 1908, 1913, 68 L.Ed. 2d 420 (1981)26
Scott v. Kelly 5:16-65 DPM-JTK.............................................

22, 26

Sea lock, 218 F. 3d at 1211......................................................

3, 17

Shaw v. Murphy 532 U.S. 223, 232-31 (2001).........................

2

Simmons v. Cook 154 F 3d 805, 809 (8th Cir. 1998)...............

27

Sprouse v. Bobcock 870 F 2d 450, 452 (8th Cir. 1999)............

27

Steinberg v. Taylor, 500 F. Supp 477, 479-80 (D. Conn. 1980)

25

Superintendant v. Hill 105 S.Ct 3768 (1985)............................

20

Thaddeus-X v. Blatter 175 F. 3d378, 394 (6th Cir. 1999)........

3,23

Thomas v. Collins, 323 U.S. 516, 530 (1945)...........................

3

Turner v. Safley 107 S.Ct 2254 (1987)....................................

15

U.S. Const Amend 04...............................................................

25

United States v. Lilly, 576 F 2d 1240, 1244-47 (5th Cir. 1978)

25,26

United States v. Stumes, 549 F 2d 831, 832 (8th Cir 1977).....

25

Williams v. Brimeyer 116 F 3d 351, 352-355 (8th Cir. 1997)..

27

8

Young v. Lynch, 846 F 3d 960 (4th Cir. 1988)

20

Statutes
28 U.S.C.A 1331

13

Other Authorities
U.S. Const Amend 01

13, 19, 23,27

U.S. Const Amend 05

13

U.S. Const Amend 08

13, 17, 18

U.S. Const Amend 14

.....13,25

9

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at appendix B to the
petition and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[S] is unpublished.
The opinion of the United States district court appears at Appendix A to the petition
and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[•S\ is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix______to the petition and is
[ ] reported at

.; or,

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

10

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
April 1.2020
K) No petition for rehearing was timely filed in my case.
[ ] A timely petition for a rehearing was denied by the United States Court
of Appeals on the Following date:_____________________ and a copy
of the order was denying rehearing appears at Appendix___.
Kl An extension of time to file the petition for a writ of certiorari was
granted to and including July 10, 2020 (date) on US Const Amend
_________________(date) in Application No.

A

The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_____.
[ ] A timely petition for rehearing was thereafter denied on the following
date:____________________

, and a copy of the order denying

rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including _

(date) on

in Application No.____A
The jurisdiction of this court is invoked under 28 U.S.C. § 1257(a).
11

(date)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

This case involves:
1) The 1st Amend Violations.
2) The 8th Amend Violations.
3) The 14 Amend Violations.
4) 42U.S.C. §200cc-l(a)(c)-(2)/RLUIPA violation.
These Amendment’s guarantee the right to practice my religion freely,
procedural due process, due process of the law, to be from cruel and unusual
punishment, arbitrary abuse of authority including retaliation, and the right to
adequate medical treatment.
These Amendment’s are enforced by the title 42 U.S.C.§1983 of the United
State’s Code.

12

STATEMENT OF THE CAUSE

The Petitioner initiated this case pursuant to his constitutional right to
practice his religion freely, Due process, Procedural Due process, Adequate
medical treatment, and to be free of cruel and unusual punishment; including
retaliation.
In 2017, the petitioner sought 42 U.S.C. §1983 relief in the United States
District Court for the Eastern District of Arkansas. See Deverick Scott v.
Danny Burl,5;17-CV-0098DPM. Defendants denied the Plaintiffs claims, and
asserted, among other things. Qualified immunity along with many other
affirmative defenses. The District Court agreed , and Dismissed with Prejudice said
Complaint. See Doc entry No. #1. Petitioner appealed.
However, Petitioner appealed to the United States Court of Appeals for the
Eighth Circuit. See Deverick Scott v. Danny Burl No. #19-2759.
Consequently, the Eighth Circuit Court of Appeals declared that they found no
reason/ basis for reversal, and Affirmed the District Courts decision; And
Petitioner’s reasoning of petitioning the Supreme Court of the United States.

BASIS FOR FEDERAL JURISDICTION

This case asks for an expanded interpretation from the high court of the 1st
Amendment Religious Practice doctrine, 5th Amendments Due Process Clause, the
8th Amendment application of Cruel and Unusual Punishment, and the 14th
Amendment standard of liberty interest. The District Court had jurisdiction under
the General Federal Question Jurisdiction conferred by 28 U.S.C.A 1331
13

REASON FOR GRANTING THE WRIT

A. Conflicting Decision among Circuit Courts
B. Need for Broader interpretation of Constitution standards of Cruel and
Unusual punishment in interference with medical treatment context
C. Need for broader interpretation of the Constitution Standards in the
excursive of religion in prison context.
D. The need for a declaration that lack of possession of contraband render a
Disciplinary in violation of due process where no other evidence is presented.
E. Need for a broader interpretation of Constitution standards of Retaliation for
use of prisoner grievance procedure.
a. NOTE: Destruction of property authorize to have, and refusal to
buy basic necessities hygiene items all in punitive segregation. Is
this cruel and unusual punishment. Due process of law violations?
A. Complicit with decisions of other courts
Retaliation
Otherwise proper acts are actionable under § 1983 if done in retaliation for
grievance filed under established grievance procedure.
Orebough v. Casporil 910 F 2d 396 (8th Cir. 1990)
But See >=> Henderson v. Baird 29 F 3d 826 (8th Cir 1994) ‘s “Violation of
Regulation essentially checkmated retaliation claim”

14

Here, in the first ruling the Court made it clear that in a situation where a
disciplinary that was a “proper act” was written in retaliation for filing a grievance,
that disciplinary write up was “actionable” (thus unconstitutional)
However, in the Second Ruling it is explicitly clear that the Court considers a
violation of rules a mechanism that voids a retaliation claim. Furthermore,
Religion
Some Circuits hold officials “must demonstrate and not just assert, that rule
at issue is the least restrictive means of “achieving a compelling interest”
O’Bryan v. Bureau of Prisons 349 F 3d 399 (7th Cir. 2003)
However, under the reasonableness standard, in contrast the Burden is on
prisoners to point to an alternative that fully accommodates the Prisoners rights at
minus the cost to valid penological interests in order to prevail.
Turner v. Safley 107 S.Ct 2254 (1987)
These standards conflict and should be sorted so that the true test to
standardize the right is known. This is a task only for this High Court.
B. Importance of questions presented
This case presents fundamental questions of how we will interpret the right
to exercise free religion in the prison setting and whether a minor security interest
should outweigh the right to immediate medical treatment for a serious condition
(for the purpose of granting summary judgment).
This case also involves the standard of review and burden of proof in prison
disciplinary proceeding dealing with “some evidence “rule. And it lack thereof
precludes summary judgment.
15

We’ll begin with the third question did previous courts abuse its discretion
by failing to liberally construe Stout / Clark complete failure of medical attention
of Scott by denial, and delays. In this case at bar, Scott believed he had been bitten
by a spider because of facial swelling... he sought medical attention by telling
nurse who informed security to have him escorted to the infirmary for evaluation.
{NOTE: Scott was housed in a maximum security area that requires a strip search
prior to leaving his cell, then submitting to full restraints of handcuffs behind back,
shackles and a security belt attached to handcuffs the entire time out of his cell.}
While entering the infirmary door the escort officers was told by Defendants
Clark and Stout “STOP! Take him back to his cell and don’t let him back out until
he takes his hair down” (D.E#51-0 pg.99 Admission No. 7 LR Clerk)
As a result of this interference, Petitioner suffered all day before finally
being taken to medical after cutting out his Religious Dreadlocks. And being
diagnosed as abscess put on K-flex on antibiotics and referred to dental on an
emergency basis (D.E.#No. 51 at 122) Atkins v. Bohn, 91 F 3d 1127,1128-29
(8th Cir. 19991: Harrison v. Barkley, 219 F 3d 132,134,136-38 (2d Cir.
2000).

The Petitioner here contends this violated his 8th Amendment right to be
free from Cruel and Unusual Punishment? And should’ve precluded summary
judgment.
Deliberate indifference occurs when prison officials prevent an inmate from
receiving treatment or deny his access to medical personnel capable of evaluating
he need for treatment... it... the medical professionals knows that his role in a
particular medical emergency is solely to serve as a gatekeeper for other medical
personnel capable of treating the condition and if he delays or refuses to fulfill hat
16

gatekeeper role due to deliberate indifference from denying access to medical care.
Sea lock, 218 F 3d at 1211; Howell Burden 12 f 3d 190,191

ni*(11th

Cir. 1994).
Whereas, if Defendant were deliberately indifferent to serious medical needs
this establishes a violation of the Eighth Amendment to the United States
Constitution. Estelle v. Gamble 429 US 97 (1976).
A medical need is serious if it has been evaluated by medical staff
mandating treatment or is so obvious that a lay person would easily recognize the
need for medical attention. Johnson v. Busbee 953 F 2d 349 (8th Cir. 1991).
The Eight Amendment explicitly prohibits the unnecessary and wanton infliction of
pain. See, Black Moore v. Kalamazoo County 390 F. 3d 890 (6th Cir.
2004).
It was held, “Eight Amendment right to avoid the pain from officer delay in access
to treatment.”
There is no dispute that the treatment was interfered with and that the
Defendants were responsible.
There is evidence in the record that it was determined later that swelling was
due to abscess. Moreover, there’s evidence medical requested he be brought to
infirmary.
Here the Petitioner satisfied both objective and subjective test to establish
that not only was staff directed to bring him to infirmary but the swelling, thus
need for treatment, was obvious.

17

In Johnson-el v. Schoemehl 828 Fed 1043 (8th Cir. 1989) it was held
“conditions that is medically serious r painful in nature creates a claim.”
The question then turns to granting of summary judgment

The standard of review for summary judgment mandates that, it is only
appropriate when the moving party show there is no genuine dispute of material
fact, and the moving party is entitled to judgment as a matter of law Celotex v.
Catrett 477 US 317 (19871
When reviewing a motion for summary judgment the court must view the
evidence in light most favorable to the non-moving party. NONCKE V. CITY OF
Port Hills 284 F 3d 923 (8th Cir. 2000).
A dispute is genuine if the evidence is such that it court cause a reasonable
jury to return a verdict for either party, a fact is material if its resolution affects the
outcome of the case Othoman v. City of Country Club Hills 677 F 2d 622
(8th Cir. 2012).
Whereby, as to the 8th Amendment claim that the Petitioner was denied
medical treatment there was a genuine dispute of material facts, and summary
judgment for Defendants should have been precluded.
Now we look at the 1st Amendment Violation. Whether the practice of
religion should be infringe upon by Security interest. When no Security reason
exist. Cause Scott was out his cell for 1 hour already and handcuff and shackle
being escorted by 2 officers.
18

When judging whether a prison rule should interfere with the practice of
religion the courts have said, “Officials must demonstrate and not just assert, that
the rule at issue is for least restrictive means of achieving a compelling interest”
O’Bryan v. Bureau of Prisons Supra.

In the case at bar, as afore mentioned, Scott was being escorted to medical
then told by officers he was being returned to his cell until he took his hair down.
Scott is part of the “One God” religion which observed the Rastafarian style
of hair in dreaded twists. Anyone familiar with this style knows that once they set
in, the only way to take them down is to cut or tear the hair(D.E#44-4).
The Petitioner was in so much pain he agreed to do this in order to be taken
to medical. However he contends that his rights under the 1st Amendments to the
United States Constitution was violated in being made to do so.
Whereas, the standard in this issue is cruel and where Defendant did not
attempt to inquire if he had permission to wear his hair in this style and where
Defendants allege there was a policy prohibiting this type of hair. The Defendants
and policy violated the First Amendment Rights of Petitioner.
In Benjamin v. Coughlin 905 F 2d 571 (2nd Cir. 1990) The court held
that “Rastafarian inmates could not be made to cut their hair because an adequate
ID could be made with Hair pulled back.”
This claim, thus presented a obvious issue of genuine dispute of material fact
and should have precluded summary judgment for Defendants.
Next we arrive at our fourth question: does a lack of possession of actual
contraband render a disciplinary for same unconstitutional?

19

The resolution of this question turns to the question of due process in prisons.
These procedures revolve around a “some evidence” entails is sometimes unclear.
The courts have long held a standard of review that if there was “some
evidence” to convict an inmate of a disciplinary rule violation the conviction
would be up held. Superintendant v. Hill 105 S.Ct 3768 (1985).

So what constitutes “some evidence”
In Petitioners case it was said a weapon was found in the cage he had
previously been in before he was transferred to an entirely different ADC Unit.
There is evidence in the record that hall cages are transit and many prisoners
frequent them in a day, not to mention the fact the hall itself may have many
inmates up and down it.
The Petitioner asserted that he knew nothing about the weapon and was at a
whole new unit when he received this disciplinary, Defendants would not produce
recording of video surveillance of hall cages.
One case worth reviewing in deciding in whatever the lack of any evidence
should’ve precluded summary judgment for Defendants is:
Young v. Lynch, 846 F 3d 960 (4th Cir. 1988) “ Due process may require
production of evidence “ when it is the dispositive item of proof, it is critical to the
inmates defense, it is in the custody of the prison officials, and could be produced
without impairing institutional concerns.
In Young, the inmate was accused of smoking marijuana cigarette (joint)
which he said was only tobacco. There was apparently no evidence but the officials
20

opinioned that the substance was marijuana. Then court ruled in favor of the
prisoner due to failure to produce proof.
In this case. Just as in Young, it is claim that the “Same Evidence “ rule was
no t satisfied and should have precluded summary judgment.
See also, Cardenas v. Wigen 921 F. Supp 286 (ED Pa 1996! stating that
only 98.3% likelihood of guilt arising where contraband was found in area shared
by 12 inmates was not “some Evidence”.
Similarly, Braussand v. Johnson, 253 F 3d 874 (8th Cir. 2001) the
only valid evidence that the prisoner possessed and escape related contraband was
the presence of a pair of bolt cutters in his work area, but they were not the “some
evidence of the offense since 100 inmates had access to the area.
The Eight Circuit Court of Appeals has held that “if the discipline which the
prisoner claims to have been retaliatory was in fact imposed for and actual
violation of prisoner rules or regulation, then the prisoner, claim that the
disciplinary was retaliatory in nature must fail.” Goff v. Bruton, 7 F 3d 734,
738 (8th Cir. 1993). See Also Henderson v. Baird, 29 F 3d 464,469 (8th
Cir. 1994).
In this case we have here today, it makes up face a reality that inmates deal
with everyday. Correctional Officers are human, with good and bad behavior as all
inmates. This makes us see and question how bias the due process requirements for
an inmate to really get a due process disciplinary hearing. Only way Scott got the
truth out of Thompson was through discovery that only came with filing a §1983
complaint. Inmates don’t have that luxury, or the right to due process disciplinary
procedures to asked they witnesses the question to get answers that’ll prove they
innocence, thousands of inmates still in prison now cause they was lack the justice
21

to prove they innocence which lead to not being eligible for parole. And
disciplinaries no overturned like Scotts not so they still denied justice.
Scott had been writhing grievances every month prior year of Appellee
Kennedy refusing to give him his legal books, she then retaliated on and destroyed
Scott property twice see Scott v. Kelly 5:16-65 DPM-JTK D.E.# 58-0 Pg 16
(for each and copy of their grievances.) the recently had just file grievance
(D.E.#51-0 pg 24, D.E. #5 l-0pg) were Appellee Kennedy had just retaliated on
Scott by destroying his property.
As Higgs implicitly recognized, a Plaintiff alleging retaliation must
reference at a minimum, the suit or grievance spinning the retaliation and the acts
constituting retaliatory conduct. Higgs, 286 F 3d 437, AT 439. Absent these
allegations a Defendant would know how to respond to complaint.
In retaliation of these grievances Scott filed on her. On 2/5/16 as Scott was
being ship to another unit. Appellee Kennedy had Thompson write a falsified
disciplinary that Thompson found shank in Scott possession. (D.E.#51-0 pg 63)
Scott was found guilty at disciplinary hearing by a judge that was bias and
not impartial. Scott told Judge he was not there. Ask officer Neal, Neese they strip
search him and shackle him once he left his cell and in their eyes the whole time
before he was put in the cage. Kennedy and Thompson had set up fake evidence so
well that Judge automatically (bias) found Scott guilty for being in possession of
shank on 005 form from staff supporting F-l report, photo endorse, witness
statement. Scott was found guilty at new unit Varner unit and locked up out of
population (D.E. #51-0 pg 63-65, D.E.#44-1 pg.)
Once Scott appealed disciplinary and wrote grievances Scott voice was not
ever heard. Warden Burl, and Assist Director Payne (D.E.#51-0 pg. 62, D.E. #51-0
22

pg. 106 answer No. 10) The shank was found after you were removed from
holding cell, (this is lead to believe once Scott was immediately pulled out cage. Its
invasion, and manipulation. Now after all this injustice Scott is force to file §1983
complaint, and do to discovery Appellee Thompson admits in admission that the
shank was not found while Scott was being removed from cell, that Scott was
handcuffed and shackled while he entered the cage, that the shank, and that shank
was found while Scott wasn’t at unit. For Kennedy have Cpl. Thompson to write
disciplinary is a arbitrary abuse of authority and punishment Majluta V.
Samples, 375 F 3d 1269,1273 (11th Cir. 2004)
It is settled law that Scott: right to complain about Kennedy conducted and
to seek administrated relief is protected by the First amendment.” GLUSTON V.
Coughlin at 81 F, Supp 2d 381,386 (N.D.NY 19991 See Cho Taylor v.
Sullivan 980 F. Supp 697,704 (S.D.N.Y. 19971. And Franco v. Kelly 854
F 2d 504, 585 (2nd ClR. 1988). 01 The conduct itself and action by Appellee
Kennedy to have Appellee Thompson write a falsified disciplinary on Scott was
inhumane, harass, retaliate and punish Scott, Kennedy, Thompson, retaliation
disciplinary they wrote on Scott on 2/5/16 was an adverse employment action (2)
Scott prior filing of Prisoner’s grievance against Kennedy was a substantial and
motivating factor in Appellee Kennedy, Thompson adverse employment action.
See Johnson v. Ganim. 342 F 3d 105,112 (2nd Cir. 2003). Making Scott
injury to his First Amendment was Kennedy, Thompson writing the falsified
retaliation disciplinary itself along with 30 days punitive isolation suffering in a
cell ( he can’t sleep form being put in mental health isolation , all the banging on
toilets, beating on toilets, and screaming) Thaddeus v. Blatter 175 F3d 378,
394 (6th Cir. 1999ften banc) holing in a prisoner, retaliation case that the injury
is “adverse consequences which flow from the constitutional protection action”)
23

Dixon v. Brown, 38 F 3d 379, (8th Cir. 1994) (Noting a prisoner case, that
the injury inheres in the retaliatory conduct itself.)
In this case for Appellee Thompson to now admit after all Scott charges for
state to correct they wrong, and more importantly know that shank was not found
on Scott while he was being search or pulled out visitation cage, or even at unit.
(D.E.#51-0 pg 111 at 5, D.E. #51-0 pg 110) and allow Kennedy to have him write
falsified disciplinary to intentionally punish is enough to “chill” an ordinary inmate
from further use of grievances. Scott was punished 30 days punitive segregation
for a “ADC prison rule violation he did not actually commit.)”
Hartsfield v. Nichols, 511 F 3d 826 (8th Cir. 20081.
Now the 1st Question of property.
Property: If an inmate is authorize by ADC to have property in punitive
segregation can that property now be destroyed as contraband for having in your
possession in punitive segregation.
In this case, Scott bought Nike Size 11 shoes for ADC Commissary
D.E.#51-0pg. 34 and gave back to Scott on 48 hr. relief on 8/24/2015. And on his
48 hour relief in October, November, Mailroom brought him 4 magazines he had
just bought from Wall Periodicals. ADC Officers brought him his property. Books,
pictures, non-nude catalogs, radio (D.EJ51-0 pg 79)
So now the question in this 20th century is this. Can you now in this case say
this property you authorized and gave Appellant Scott on 48 hour relief in his
punitive isolation cell is now considered contraband, cause come shake him down
and say it considered contraband because you were found in possession of this
contraband while housed in punitive isolation. (D.E. #51-0pg 24) (D.EJ44-16 pg
24

2) and it will be destroyed. But not his authorized property that Appellee’s brought
him on 4 hour relief in his punitive cell in isolation because they couldn’t move
him out of isolation by ADC policy cause of bed space (D.EJ51-0 pg 79). See
D.E.#44-12 pg 6 section H. Consecutive punitive sentences: Inmates serving
consecutive punitive sentences shall have their privileges restored for a 48 hour
period at the end of each 30 day punitive period. This relief shall b known as “48
hr relief.” These 48 hr relief periods are to be in housing outside the Punitive
Isolation area if at all possible . And since they didn’t move Scott out of his
punitive isolation cell on 48 hour relief they brought Scott hi property. There is a
certain belief that the powers that be when they made our laws they didn’t foresee
a case like this in the future. They didn’t foresee officers “correctional officers”
acting under color of state law to abuse they authority. To act criminal mind like
the alleged convicted felons they are guarding. Is there a difference between
inmate’s criminal actions and a C.O.’s there is a substantial body of authority
holding that convicted prisoners do retain limited privacy interest under the Fourth
Amendment and the Fourteenth Amendment Due Process Clause in connection with
unreasonable searches and unjustified confiscation of personal property by prison
officials, See e.g. United States v. Lilly, 576 F 2d 1240,1244-47 (5th Cir.
1978): United States v. Stumes, 549 F 2d 831,832 (8th Cir 1977); Banner
v. Coughlin 517 F 2d 1311,1315-17 (7th Cir. 1975); Steinberg v. Taylor.
500 F. Supp 477,479-80 (D. Conn. 1980). This Court need not decide in this
case the full extent to the constitution protection afforded convicted prisoners
against unreasonable search and confiscations. The Court does conclude, however
that a prisoner has in protectable property interests in items of personal property he
legitimately possess, and that these interests are infringed when prison officials
seize such property in an unreasonable manner or without a legitimate justification.
One a prisoner has proven the confiscation of legitimately possessed property, the
25

burden is in the prison officials to establish the reasonableness of the seizure. See,
e g. United States v. Lilly, 576 F 2d at 1245; Bonner v. Coughlin 517 F
2d 317.
2. Which leads to the main reason Scott property was unreasonably confiscated
and destroyed. See on 12/15/2915 Sgt. Lt. Cpts. “ Appellee Clark” told Scott his
“Books, magazines, shoes, family pictures, non nude catalogs” would be put in his
property.(D.E #51-0 pg 24). On 12/23/2015 Scott talk to Appellee’s weekly
(Fitzgerald/ Culclage, Stout) about his property since Appellee Kennedy the
Property Officers was the officer didn’t come get Scott property once he came off
punitive which she herself actions is what now they considered made Scott
property now contraband(D.E#51-0 pg27).
Kennedy knowing this knew that property was not contraband. But do to
motives of retaliation Scott filing grievances on her every month refusing to give
his legal books and destroying some more property in retaliation. See SCOTT V.
Kelly 5:16-65 DPM-JTK; ( D.EJ58-0 pg 16)
And due to these facts. Kennedy retaliated on Scott destroying his property
and Appellee’s weekly, Stout, Clark failure to take corrective action. By telling her
to not destroy Scott property he could have legitimately or replacing it and District
Court erred in granting summary judgment in favor of Defendants/ Appellee’s
when evidence was sufficient to raise genuine issue of material fact. Partl V.
Taylor 451 US 527.536,1010 S.Ct. 1908,1913.68 L.Ed. 2d 420 (19811.
Logan v. Zimmerman Bush Co. 455 US 442,102 S.Ct 1148 71 L.Ed 2d 265
(1982); j_U.S. Court of Appeals.
3. To further prove Kennedy actions was done in retaliation and to punish Scott by
destroying his property where to only get some more he was gone have to have his
26

family sent him more money. See D.E.#51-0 pg 43 Same officer Watson found
more property in Scott cell and punitive isolation “Sweat pants” confiscated them
and Kennedy didn’t destroy them and gave back to Scott his next 48 hour relief
This shows her conduct amounted to reckless and callous indifference to Scott’s
First Amendment right to submit grievances and may all for deference and
punishment over and above that provided by a compensatory award. See
Williams v. Brimeyer 116 F 3d 351,352-355 (8th Cir. 1997) (Defendants
who unconstitutionally denied inmate incoming mail were callously indifferent to
inmate’s First Amendment rights and $1,000 punitive damage award was
appropriate. Scott has met his evidentiary burden by submitting direct evidence
that Defendant Kennedy destroyed Scott property as a retaliatory measure Prison
officials do not have the discretion to punish an inmate for exercising his First
Amendment rights...)

Scott is entitled to compensatory , punitive , nominal damages for Kennedy,
Thompson violated of his 1st Amendment Rights. See SPROUSE V. BOBCOCK 870 F
2d 450,452 (8th Cir. 1999); Simmons v. Cook 154 F 3d 805,809 (8th Cir.
1998) upholding $2,000 damage award for paralegal inmate placed in solitary
confinement for thirty two hours. Scott was placed in there for 30 days.

27

CONCLUSION

Here the lower courts have spoken and Petitioner humbly requests the Higher
Court to grant Certiorari and re-order these questions. Reverse, remand to District
Court for trial, and appointment of counsel.
I swear under penalty of perjury the foregoing is true and correct and best of my
knowledge, understanding and belief
This

day of

, 2020.

Mr. Deverick Scott# 131042
P.O. Box 400
Grady, AR. 71644

28

